<html>
<title> - [H.A.S.C. No.114-41]CAPACITY OF U.S. NAVY TO PROJECT POWER WITH LARGE SURFACE COMBATANTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 114-41]

                        CAPACITY OF U.S. NAVY TO

                        PROJECT POWER WITH LARGE

                           SURFACE COMBATANTS

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 17, 2015

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                                   ________________

                           U.S. GOVERNMENT PUBLISHING OFFICE
  95-316                            WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
     
     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California            MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California                    Georgia
JIM BRIDENSTINE, Oklahoma            SCOTT H. PETERS, California
JACKIE WALORSKI, Indiana             TULSI GABBARD, Hawaii
RYAN K. ZINKE, Montana               GWEN GRAHAM, Florida
STEPHEN KNIGHT, California           SETH MOULTON, Massachusetts
STEVE RUSSELL, Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Fanta, RADM Peter, USN, Director, Surface Warfare (N96), U.S. 
  Navy...........................................................     2
Mercado, RADM Victorino G. ``Vic,'' USN, Director, Assessment 
  Division (N81), U.S. Navy......................................     4

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    29
    Mercado, RADM Victorino G. ``Vic,'' joint with RADM Peter 
      Fanta......................................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  CAPACITY OF U.S. NAVY TO PROJECT POWER WITH LARGE SURFACE COMBATANTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Wednesday, June 17, 2015.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. We want to welcome everyone to this hearing on 
the Seapower and Projection Forces Subcommittee regarding the 
capacity of the U.S. Navy to project power with large surface 
combatants. I am going to, in the interest of time, waive my 
opening statement and put that in the record because we 
understand we may have votes at about 3:15 and we think this is 
an important hearing. We want to make sure we get as much of it 
in as possible.
    We are delighted today to have two witnesses that have a 
great deal of expertise in this matter. We have with us Rear 
Admiral Peter Fanta, Director of Surface Warfare, and also Rear 
Admiral Vic Mercado, the Director of the Assessment Division.
    And in just a moment I am going to ask--I think, Admiral 
Fanta, you are going to give the opening statement for both. 
But I would like also, Admiral Mercado, if you would take just 
a moment after that opening statement and give us a brief 
overview of what the director of the Assessment Division does.
    And Admiral, also after your opening statement, if you 
would tell us a little bit about your capacity as director of 
Surface Warfare, so our members have a good feeling of the 
capacity you bring to the committee.
    With that, I would like to recognize my ranking member, Mr. 
Courtney, for any comments that he might have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 29.]
    Mr. Courtney. Thank you, Mr. Chairman. And again, in the 
interest of time I am going to waive all opening remarks and 
make sure the floor is available to our two witnesses as soon 
as possible.
    Mr. Forbes. Without objection, we will put all of the 
opening statements and make them a part of the record. And with 
that, Admiral Fanta, we look forward to any opening remarks you 
may have for us.

 STATEMENT OF RADM PETER FANTA, USN, DIRECTOR, SURFACE WARFARE 
                        (N96), U.S. NAVY

    Admiral Fanta. Yes, sir, thank you, Mr. Chairman, Ranking 
Member Courtney. I will keep this brief so we can get to your 
questions and hopefully satisfy you with our answers.
    You asked us today to discuss the capacity of the large 
surface combatants in the United States Navy [to] project 
power. The cruisers and destroyers we have of today were 
created during the height of the Cold War. That said, we didn't 
rest on our laurels. We have continued to upgrade them and 
modernize them over the past 30 to 40 years of their service 
life, and we will continue to do so.
    We took that technology that was in there from the 1960s 
and 1970s and we have continued to modernize it and evolve it, 
and in fact, the technology going in today's destroyers are the 
height of what is available around the world in that level of 
surface combatant.
    Bottom line is, we are installing these advanced 
technologies on our new surface combatants because if we cannot 
own the seas and control the seas, we cannot project power from 
the seas.
    You asked us about the capacity of large surface combatants 
to project power. The answer is not a simple one, but really a 
three-phased question and a three-phased answer.
    We have the fight today and what is our capacity and 
capability to do that. We have the fight in the near- to 
midterm, maybe 5 or maybe 10 to 15 years from now. And we have 
a peacetime presence and deterrence mission. All those have to 
be factored in, as my colleague, Admiral Mercado, will tell you 
about how he factors all those when he checks my math on 
whether I have enough ships. So it is really not just about a 
single answer, but it is a multitude of answers we have to put 
together.
    If you ask me about the fight today and can we win against 
a near-peer adversary, the answer is, absolutely. Now there is 
always risk in war and we might take some damage here and 
there, but against a near-peer adversary in a fight today 
against the United States Navy, we will prevail.
    That is based upon our best intelligence estimates of what 
is out there throughout the world and what our capabilities are 
against those assets. But that is today.
    Tomorrow's fight is slightly different, and it must be an 
estimate of where we think we will get in tomorrow's fight. And 
that fight may be 10, 15, or 20 years down the road. And again, 
you are asking us to provide our best guess on what we see 
based on what is evolving in technology and where our current 
technology is to counter these new threats.
    So what we will tell you here is that we see risk in 
tomorrow's fight. If we do not modernize fast enough, if we do 
not build fast enough, if we slow down our build rate of large 
surface combatants, if we slow down our modernization rate of 
large surface combatants, there will be a risk when the 
advanced threats arrive in numbers from the development stages 
they are in now to a production stage from a potential 
adversary sometime in the next decade-plus. That is the war 
fight.
    I will keep this brief and just quickly describe the 
noncombat operations or the presence operations. Those are 
governed by what we call the Optimized Fleet Response Plan. 
That is basically a long sentence to tell you how long we 
deploy for and how often. We deploy optimally for 7 months out 
of every 36. The rest of that time we are not sitting there, 
but we are training, we are modernizing our ships, we are 
maintaining our ships, and we are making sure our sailors know 
how to fight our ships.
    We also maintain a surge capability in case something comes 
up in the world. So that is that blend that we have between 
today's fight, the fight of tomorrow 10 to 15 years down the 
road, and what we have for peacetime presence.
    When I don't have enough ships, I have to take risk or I 
incur risk, and that is whether in the war fight or in the 
peacetime presence requirements somewhere around the world. We 
will talk to you about, when asked, about ballistic missile 
requirements, about high-end warfighter requirements, about 
peacetime presence requirements, and what that capability and 
capacity mix is between them.
    It is not just about large surface combatants. I am the 
director of Surface Warfare for the United States Navy. You 
asked what I do. I buy not only ships and weapons systems, I 
also buy the sailors--I pay for the sailors that man them. I 
make sure they are trained and pay for their training.
    I buy everything from training systems to Tomahawk cruise 
missiles. I buy civilian manpower, and I buy civilian milling 
machines in our shipyards. I buy everything from advanced 
weapons systems to sailors to sonars.
    Funding all these puts pressure on just the simple number 
of capacity of our large surface ships to do their job, but I 
have to have this blend of high-end capability and the numbers 
we need. It takes me 15 years to develop and field a new ship. 
It takes me 7 years to develop and field a new weapon system. I 
have to make sure I am keeping an eye on both of those to make 
sure that someplace 15 years down the road we are not short on 
ships or we don't have an advanced capability that does not 
allow us to win the future war fight.
    So whether we are at wartime steaming or peacetime presence 
operations, the number of ships determines if we are at sea. 
The sailors, weapons, readiness determines how capable and 
lethal we are. Presence without lethality and without a capable 
force is impotence. Presence with a lethal and capable force is 
deterrence against any future adversary.
    With that, we are standing by to answer your questions. I 
have already described slightly what I do. I buy surface ships, 
weapons, sailors, training, modernization, maintenance, and 
everything in between.
    I own the movies that they watch in the evening when they 
are off watch. I own putting ice cream machines on the mess 
decks so they can put on that extra 5 pounds in deployment. I 
also own the ability to shoot down long-range ballistic 
missiles when they are coming at our carriers. I own that range 
of everything that you see, and I make sure our sailors are 
ready to operate and maintain these systems.
    Over to my colleague, Admiral Mercado.
    [The joint prepared statement of Admiral Fanta and Admiral 
Mercado can be found in the Appendix on page 31.]

STATEMENT OF RADM VICTORINO G. ``VIC'' MERCADO, USN, DIRECTOR, 
              ASSESSMENT DIVISION (N81), U.S. NAVY

    Admiral Mercado. Mr. Chairman, members of the committee, 
thank you for allowing me to appear before you today. The best 
way to describe my job, and Admiral Fanta alluded to it, is I 
grade homework. I am the director of Assessments Division. As 
you all well understand that we have many, many competing 
requirements and we have very limited resources, or a finite 
number of resources.
    So I have a team that goes through and assess all the 
programs and things that Navy can invest in and give my 
recommendation to the CNO [Chief of Naval Operations], based on 
a priority of what I call integrated warfighting. So we have 
threats that are out there that we project out into the future 
in the near term, and then we have a number of programs 
designed to pace or outpace those threats. My job is to review 
those, assess them based on data, and make the recommendation 
to the CNO.
    I have been in this job now for about 6 weeks, and 
previously I commanded Carrier Strike Group Eight out of 
Norfolk.
    [The joint prepared statement of Admiral Mercado and 
Admiral Fanta can be found in the Appendix on page 31.]
    Mr. Forbes. Well, thank you both for being here. I am going 
to use just a little bit of my time for my opening statement 
for questioning, but help me, and either of you can respond to 
these. No magic in the order or who would respond.
    But as we look right now, one of the concerns we have, of 
course, is with our surface combatants and how many we are 
going to need as we look out to the future. But also one of the 
things that impacts that is the deployment cycles that we are 
on right now. Both of you have spoken with Mr. Courtney and I 
about the concern we have with current deployments being as 
much as 9 months on some of our ships.
    Can you tell me why that has a negative impact and what we 
are doing to try to mitigate that and reduce those down?
    Admiral Fanta. Yes, sir. Average deployment length right 
now that we are seeing across the Navy is 9.2 months, based on 
the data we have seen over the last about 2 years. That is a 
function of being everywhere to cover every contingency that we 
have been asked to for the last several years.
    Some ships that we have have been on four deployments in 4 
years. We recognize that is a strain on our force. That is a 
strain on our sailors, that is a strain on the ships 
themselves, that is a strain on whether I can modernize them 
fast enough, and that is a strain on, frankly, our resources 
and our funding. Because every time I keep it out at sea I have 
to bring it back and fix even more things because I am 
exceeding that 7 months out of 36 that I would ideally deploy a 
ship.
    So what we are doing to counter that is we are 
establishing, as I said in my opening statement, this fleet 
response plan that allows us to get on a steady-state operation 
that blends this modernization, maintenance, training, and 
surge time to match what we would ideally like to be a 7-month 
deployment out of a 36-month cycle.
    We are not there yet. We have just deployed our first--or 
we have just put our first strike group into that process. This 
is a learning time for us to see where the pivots and where the 
shortfalls are on it, but we are on the track to get to that 
stability, and our intention is to get to that stability in the 
late teens to early 2020s with the full-up strike groups being 
on that cycle.
    With the number of ships we have right now, that will be a 
challenge, but as you know, I am building ships at a rate and 
keeping ships on board at a rate that I expect in the early 
2020s allow me to get to those deployment cycles of maybe not 7 
months but someplace between 7 and 8 months.
    Mr. Forbes. So would it be fair to say, as you just 
mentioned, that the number of ships has a huge impact on 
whether you can get down from that 9.2 to your goal of 7?
    Admiral Fanta. That is correct, sir.
    Mr. Forbes. And would it also be fair to say that if you 
don't get down to that goal, as you mentioned it puts an 
additional strain on your sailors, which I take it would mean 
strain on their families, strain on their lives, and maybe even 
strain on your difficulty in retaining those sailors.
    Admiral Fanta. All those are a blend, sir. When we resource 
this, all of this, we have to put all of this together, and 
that includes the recruiting of new sailors and the retention 
of current sailors.
    Mr. Forbes. So it would have an impact on both the 
recruitment of new sailors and the retention of existing.
    Admiral Fanta. Yes, sir, it would.
    Mr. Forbes. Also it has an impact on the lifecycle of our 
ships and how many years we can get out of those ships. Is that 
fair to say?
    Admiral Fanta. I can't tell you an exact number, but if I 
deploy four times in 4 years, there will be an impact on 
whether I can get that ship to 35 years of service life, 38 
years of service life, or ideally what I would like to do, 40 
years of service life.
    Mr. Forbes. And if we don't have the number of ships that 
we need, you mentioned two things in your opening statement, 
and I know I specifically told you that you didn't have to put 
your written statement in, but in your written statement you 
talked about a third. So you mentioned war fight and peacetime 
presence.
    But also both of you in your combined written statement 
talked about the importance of deterrence, and that is a part, 
I guess, of the peacetime presence. Is that correct?
    Admiral Mercado. Yes, sir. I say it is a combination. It is 
a part of our peacetime presence, but also that high-end 
warfighting capability that we have strategically as a Navy I 
think serves to underpin any kind of deterrence whole-of-
government model. So yes, we have to be there and we have to be 
forward deployed. We have to support the COCOM [combatant 
command] demand and the peacetime presence as outlined in their 
theater campaign plans.
    But also we need to preserve our capability and capacity to 
conduct high-end warfare against a near-peer competitor. As 
long as we also show that and demonstrate that, I say that also 
underpins any deterrence strategy.
    Mr. Forbes. So it would be fair to say if we have fewer 
ships, if we don't have the deployment time so that we can do 
the high-end training that you would need, it could impact our 
deterrence capabilities.
    Admiral Mercado. Yes, sir, and I think the fleet response 
plan model that Admiral Fanta talked about helps us get on that 
road. I mean, we need to get discipline into starting our 
availabilities on time, ending them so we can go into a 
consolidated basic training phase and get the ships trained in 
the basics of getting underway and fighting the ships 
individually.
    Then we go into what we call the integrated phase so we can 
get--gather them together to fight as a carrier strike group.
    Mr. Forbes. So--I am sorry. I didn't mean to cut you off.
    Admiral Mercado. I am saying what we lose when you talked 
about continuous deployments, we lose that opportunity to go 
back and bring the ships back, to get them into that training 
cycle because high-end warfare capability and training 
atrophies over time because even when you are deployed and you 
face an adversary, it is never to the level that you see when 
you ramp up during your training in the fleet response plan.
    Mr. Forbes. So if I look at that fleet response plan, and 
Admiral Fanta, maybe you can help me with this, but we were 
also talking about our BMD [ballistic missile defense] 
requirements. And as I understand it, the current BMD 
requirements are 40. I think your goal, and you now have 33 
ships. Is that correct? Don't let me put words in your mouth. 
Tell me if I am incorrect.
    Admiral Fanta. Yes, sir. My requirement at this point is 40 
advanced capability ships that have the capability of both 
knocking down an incoming ballistic missile while 
simultaneously looking for and firing upon an incoming cruise 
missile that is at the surface of the ocean. So that is a 
minimum of 40 advanced capability ballistic missile ships.
    I have approximately 33 ballistic missile capable ships. 
That is not to say they are advanced to that level. And we will 
reach that in a current build rate of that 40 ships in 
approximately the mid-2020s at this point, of those advanced 
capability ships, sir.
    Mr. Forbes. So you need on your requirements 40 with the 
advanced capabilities. Right now you have 33, but they do not 
all have advanced capabilities on them.
    Admiral Fanta. That is correct, sir. We are modernizing 
those ships, and we are building more with the advanced 
capability even as we speak.
    Mr. Forbes. Does your fleet modernization plan apply to the 
BMD ships, as well?
    Admiral Fanta. Ideally it will when we implement it, but at 
this point----
    Mr. Forbes. I am sorry, the fleet response plan.
    Admiral Fanta. The fleet response plan, yes, sir. Ideally 
it will. At this point it is primarily--we have started it 
around the carrier strike group. A lot of the ballistic missile 
deployers are independent deployers, so what we would do 
eventually is to bring them into that response plan. They are 
not necessarily currently under that cycle. That would be out 
toward the 2020s before we put all these together.
    Mr. Forbes. So it would be fair to say that today we have 
the need for 40 with the advanced capability. We only have 33, 
and they do not all have the advanced capabilities. And that 
right now we do not really have a plan of getting those 
deployments down from the average 9.2 to 7 or something around 
there for our BMD-capable ships. Is that fair?
    Admiral Fanta. Let me adjust that slightly, sir. There is a 
difference because the advanced capability ships are primarily 
used to defend Navy assets in a high-end fight at sea against a 
near-peer competitor with advanced capabilities. The BMD ships 
that I spoke of earlier that we have in the low 30s right now 
and continue to build more, are primarily for COCOM requests to 
defend other assets such as defended asset lists in various 
parts of the world.
    So they are perfectly capable of handling advanced threats, 
but just in that one BMD capability. What we don't want to do 
is mix the peacetime presence requirement of those--I won't 
call them lesser capable, but baseline capability ballistic 
missile ships with the advanced ones I need to beat a high-end 
competitor at sea in the middle of a fight in the middle of the 
ocean.
    Mr. Forbes. And I am going to try not to be too much 
longer, but I just want to make sure I have got this. On the 
40-ship requirement that you have, and I know that is for the 
advanced capability, you now have 33 BMD-capable ships, not all 
with the advanced capability.
    But it is my understanding from what you have said that I 
really do not at this time--I hope to later--have a plan that 
will help me get the deployments down on the ships that I have 
from that 9.2 to roughly 7 to 8 months at that time. Is that 
fair?
    Admiral Fanta. Yes, sir, that is fair. It is not that we 
don't have a plan. It is that we need to get to the numbers to 
allow us to implement.
    Mr. Forbes. So you would need more numbers to get there.
    Admiral Fanta. I would need more total numbers of 
capability, not capacity. In other words, I need to modernize 
to get to those numbers.
    Mr. Forbes. So you would need more numbers to get there, 
and then two last bullet points and then I will shift to Mr. 
Courtney. The demand signal is actually much higher than the 
requirements. Your current demand signal from the COCOMs for 
BMD ships would be around 77 ships. Is that fair to say?
    Admiral Fanta. The demand signal is twofold, sir, for a 
high-end naval war fight and protection of naval assets and our 
bases that we need to fight in various places of the world is 
those 40 ships I discussed.
    Mr. Forbes. Okay.
    Admiral Fanta. On top of that, COCOMs have a requirement, 
and if you look at it from another X number of spots, today it 
might be 77, all right, total ships, including the 40, 77 spots 
around the world that we might put a ballistic missile defense 
ship to cover some contingency of some nation threatening us or 
threatening an ally or threatening a vital asset with a 
ballistic missile at that point.
    So if you don't think upon it as I need a ship there all 
the time, it is a spot in the ocean where I might need a ship 
sometime in the future against a potential adversary that 
threatens us or an ally.
    Mr. Forbes. But you can't cover all of that today with the 
current fleet that we have. Would that be fair to say?
    Admiral Fanta. That is fair. I need to modernize to get to 
those numbers.
    Mr. Forbes. And you need more numbers.
    Admiral Fanta. I need to at least modernize. If I have 
every ship modernized to the point where every ship can handle 
that threat, then the numbers work out correctly.
    Mr. Forbes. Let us go back to the 33 that you have got. 
Would it help you if this committee could help you get 3 more 
ships and you had 36 versus 33?
    Admiral Fanta. It depends on when, because----
    Mr. Forbes. Suppose we could give them to you tomorrow.
    Admiral Fanta. Then it would always help, yes, sir.
    Mr. Forbes. Suppose I could get you, instead of three I 
could get you six. Would that help you better than the three?
    Admiral Fanta. I can't build them that fast but----
    Mr. Forbes. But let us assume I could.
    Admiral Fanta. If you could, absolutely.
    Mr. Forbes. The flipside, would it hurt you if you had less 
than the 33?
    Admiral Fanta. Yes, sir. From a warfighting perspective.
    Mr. Forbes. Then tell me how in the world the Navy can 
suggest that we can take out 11 cruisers when 5 of those have 
BMD capability on them.
    Admiral Fanta. Because of the way that I am blending in the 
capability, that advanced capability.
    Mr. Forbes. That is not my question. I don't want to put 
you on a difficult spot, but here is what I am saying. You have 
just told me if you have five more, it will help you 
significantly.
    Admiral Fanta. Yes, sir.
    Mr. Forbes. We have got five cruisers out there with BMD 
capability that the Navy is telling me they want us to pull 
offline today. So I am not promising you those next month or 6 
years. I am saying, you have got them today, and the Navy is 
telling me they want to take them out of that fleet.
    It has got to make sense that that would hurt us and 
stretch us on our BMD capabilities that we currently are 
looking at today. So explain to me how that would not.
    Admiral Fanta. Yes. First answer is yes.
    Mr. Forbes. Okay.
    Admiral Fanta. Second----
    Mr. Forbes. Go ahead. I don't want to cut you off. You 
answer.
    Admiral Fanta. I have more concerns 5 to 7 years from now 
when the numbers of threats increase----
    Mr. Forbes. I have got you there.
    Admiral Fanta [continuing]. So I would rather have those 
cruisers available at that time.
    Mr. Forbes. But what you are saying is, and you have been 
fair in saying this, you are taking risks today so that you 
will have them tomorrow. But what we are also saying is, and 
the Navy is telling us this because the Navy, when they first 
came out, suggested we took seven of those cruisers out. Never 
even talked about having them tomorrow. The Navy doesn't have 
them in their FYDP [Future Years Defense Program] at all.
    Basically what I think we can agree on is if you have five 
less BMD-capable ships, it is going to be much more difficult 
for you, at least in the short term, than if you had those five 
cruisers. Is that fair to say?
    Admiral Fanta. Yes, sir.
    Mr. Forbes. With that, I ask Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman and to both witnesses 
for your testimony and your service. Again, I just want to sort 
of go back over a point that the chairman touched on a moment 
ago, which is the request from the combatant commanders, which 
we hear a lot about on this committee, and then obviously the 
Optimized Fleet Response Plan.
    How do they sort of intersect and, you know, does someone 
have to kind of adjudicate, you know, the signals and the plan?
    Admiral Mercado. Sir, when we talk about the requirement, 
we have talked about--I think you have been briefed on this 
force structure analysis and the number has been talked about 
40 BMD. So if we talk about 40 BMD, that is the latest update 
we did to the force structure analysis that defines what the 
BMD requirement is for Navy-unique missions. Which is, you 
know, we have ships that defend fixed land sites. So if we 
needed to come up with a number, say, to defend the sea base 
and to defend expeditionary sites, the number for that is 40.
    Now when you get into COCOM demand, they will put out 
today's requirement, and based on situations that are evolving, 
we see Syria, any number of situations, so the COCOMs will come 
up and say, here is the demand. We need two, three, five sites. 
I guess the 77 number is their potential sites for all COCOMs 
that they have identified that they could use a BMD ship for.
    So when that demand comes in, based on the inventory that 
we have available today, not out of maintenance or things, then 
we will try to source that. If we cannot then it has to be 
adjudicated. Then we go back and work with the COCOM Navy, 
COCOM Joint Staff, and OSD [Office of Secretary of Defense] to 
adjudicate who--which COCOM will get the ship and which will 
not.
    Mr. Courtney. Again, talking about the short term which you 
alluded to a moment ago. I mean, the balloon goes up if there 
is just some all-out conflict going on which we have a national 
security interest in and the order goes out. I mean, you have 
obviously got the structured force plan.
    But describe what happens if that is the case. Does the 
plan get set aside and, you know, all hands on deck?
    Admiral Fanta. Sir, the plan is just for peacetime and 
presence operations to allow us that stability. If the balloon 
goes up as you describe it, we surge everything that we need as 
fast as we can. We have faith in both the industrial capability 
of the country to patch up in days and weeks what it normally 
takes months and years to do.
    We have faith in our training systems and our training that 
our sailors will be ready. We will strip everybody from every 
schoolhouse as an instructor that has already got that high-end 
knowledge and put them to sea, and plus-up where we need to go, 
and we will go fight and we will take everything, and we will 
put it into that fight. Now that is against a high-end near-
peer competitor. But we will surge everything we have, and we 
have sufficient capacity to do that at this point.
    One of our assumptions is that if we get into a fight, all 
this nice time about how long you are at home and how long you 
are at sea and how much time you get from maintenance goes 
right out the window and we go fight the fight. We don't stick 
to a plan just because something, you know, something else 
happens in the world. Yes, sir.
    Mr. Courtney. And your testimony, Admiral, earlier was that 
you feel that, you know, in terms of a near-peer competitor, I 
mean, right today in the near term we are actually in a strong 
position to, you know, make sure that our country is protected.
    Admiral Fanta. I have sufficient capability and capacity in 
my large surface combatants. I will not speak for the rest of 
the Navy. I get to be very parochial in my job. I get to deal 
with surface warfare only. Of my large surface combatants, to 
fight that large fight today, against the capability and 
capacity that I see out there in advanced threats from a near-
peer aggressor.
    Mr. Courtney. So looking out 10 years from now or 15 years 
from now, I mean, what keeps you up awake in terms of--or at 
night, rather, what keeps you awake at night thinking about 
that timeframe?
    Admiral Fanta. So I am concerned that I will not be able to 
modernize, or build new, fast enough to be able to get to the 
capacity you and the chairman have mentioned, in that 10 plus 
or minus year period. So I right now, based on what we assume 
and what we think will happen around the world on build rates 
of advanced weapons, that is where we start to worry about the 
capacity and capability. That is where we think that our 
biggest risk lies right now, and that is what we are judging 
ourselves against.
    Mr. Courtney. And the existing shipbuilding plan talks 
about, again, the number of large surface combatants starting 
to go up probably within the next decade or so. I mean, does 
that give you some sort of margin for error?
    Admiral Fanta. So my shipbuilding plan in the late teens, 
early 2020s, exceeds my current 88 number that we have set as a 
minimum of Navy large surface combatants. I get to just over 
100, and then my decision point becomes on whether I can keep 
the oldest destroyers, that, by the way, I am modernizing first 
right now with some advanced capability.
    If I can keep those to more than 35 years of life then I 
can stretch them for about 5 years to 40 years of life. These 
are large capital investments. Surface shipbuilding of any sort 
is the largest single expenditure other than entitlements the 
United States Government bestows on any program, so we intend 
to keep those as long as possible.
    Allowing us to keep those to 40 years by maintenance and 
modernization then keeps me above that 88 minimum requirement 
well into the mid-2020s, sir.
    Mr. Courtney. Which just about coincides with the Ohio 
replacement sort of surge in the budget, which again, the 
shipbuilding plan assumes that future Congresses are going to 
find money for that, or that we are going to implement our Sea-
Based Deterrence Fund to, you know, shield the rest of the 
fleet. But again, I mean, that is actually not a bad hedge to 
deal with that challenge, which is going to be, you know, 
definitely a reality for the Navy in the 2020s.
    Admiral Mercado. Sir, I would say that you have hit on my 
biggest concern. First of all, since I look across the 
spectrum, I can say that our assessment is that as a Navy we 
can deal with a near-peer competitor with some risk. The number 
that we have talked about here, 88, is the minimum requirement 
that we see we need to address steady-state requirements, and 
the most stressing scenario that we see, which is a near-peer 
competitor fight.
    But those numbers also assume that the ships are properly 
maintained so that they--and used so that they reach their 
expected service life. If that doesn't happen then that is a 
concern.
    Mr. Forbes. Mr. Conaway is recognized for 5 minutes.
    Mr. Conaway. Well, thank you.
    Thank you, gentlemen. If we had more than one high-end 
near-peer competitor come at us, the assessment looks like 
what? At the same time.
    Admiral Fanta. If we have more than one high-end near-peer 
competitor today, as far as numbers we would split our forces 
and the risk would increase. I cannot tell you that. It depends 
on the scenario, the ocean, where we are, and how determined we 
both are.
    Admiral Mercado. My assessment, sir, is based on a single 
near-peer competitor.
    Mr. Conaway. Right. Seven-month deployment, existing ships. 
You guys live this stuff every day. It is second nature, and 
members of the committee have a little bit better 
understanding, but we have got to convince other folks in this 
conference that don't have the insights as to what that looks 
like and why it is important that we get there. We need 
graphics or metrics.
    Can you describe what, if you take--if you were limited to 
7-month deployments with these ships, obviously the other 
stretch is you are not everywhere you need to be or you want to 
be, and you are not doing all these other kind of things.
    How do we describe to other policy deciders what that gap 
looks like from if you--you know, if you were just sticking 
with the 7 month in this deal versus what we give up, where we 
are not, all those other kind of risks that associate.
    Is there a way to put that into graphics and easily 
understood, you know, 1-minute elevator kind of talk?
    Admiral Mercado. Sir, if you are looking where we are 
operating today, we have essentially a carrier operating 
forward deployed in Yokosuka, Japan, a carrier strike group. 
And we also have a carrier now operating in the Middle East.
    So if you talk about what the fleet response plan does, it 
allows us to maintain at least two carriers deployed, but more 
importantly, it----
    Mr. Conaway. But that is with 9-plus month deployments.
    Admiral Mercado. No, sir, this is still with the 7-month 
deployment construct in a 36-month cycle. But what it does 
allow us to generate is three additional strike groups ready to 
surge in an amount of time.
    Mr. Conaway. So the differential between where we are right 
now and where you would like to get to is three carrier strike 
groups.
    Admiral Mercado. Yes, sir. We are at two and we want to 
build up our capacity to surge to five, with three on standby 
in a certain amount of time and this will allow us to do that. 
In the past----
    Mr. Conaway. But that doesn't get you to 7-month 
deployments now.
    Admiral Fanta. Let me put this.
    Mr. Conaway. Trying to get you to 7----
    Admiral Fanta. Yes, sir. So 7-month deployments. So when we 
were at almost 600 ships, we were deploying approximately 100 
ships at a year across the world. Right now we are at around 
300 ships and we are still deploying 100 ships around the 
world.
    When we do that, we stretch these out. When I was in the 
Middle East, sir, one of my ships went to 11\1/2\ months and 
they set the record for the longest deployment out there.
    Mr. Conaway. We are on the same side of this. I am just 
trying to figure out a way. How do I communicate those issues 
to folks who really don't know much about it and say, all 
right, here is the risk, here is the gap. If we went to 7 
months--if Congress put in the NDAA [National Defense 
Authorization Act] that you couldn't have a ship at sea more 
than 7 months out of 36, subject to a fight, you know, we are 
going to have to say, well, we can't be everywhere we are right 
now.
    Because you are taking whatever ships you have got, and you 
are stretching across all those requirements to make that 
happen. I am just trying to get a feel for what we don't get to 
do if we went to the--if we had the capacity that you wanted.
    Admiral Fanta. Yes, sir. If I look at it from that 
perspective that you are trying to put this in a contextual 
sense; 7 months out of 36 I miss one birthday or one Christmas 
every 3 years, all right. I miss one anniversary every 3 years. 
Right now I am at 9 out of 27, which means I am up at missing 2 
birthdays, 2 Christmases, and 2 anniversaries every 2\1/2\ 
years.
    If I go and keep going on this path and I hit beyond nine, 
at that point I don't watch softball games, Christmases, etc.
    Admiral Mercado. Sir, Carl Vincent just came back from 
deployment. She did a little over 9 months, to San Diego, and 
my son was part of that deployment. I just came from the fleet 
and we have planned now to schedule our future deployments at 7 
months.
    Mr. Conaway. Okay. Let me ask you this, Admiral Mercado. 
You mentioned all of government. We want to make sure all of 
Defense is in this fight. Are there folks just like you at the 
other services doing the same kind of analysis work on 
refereeing between all the various things, and then do you guys 
talk to each other, and how?
    Admiral Mercado. Yes, sir. I have already spoken to my 
Marine counterpart once. I am fairly new in the job so I am 
reaching out to my Air Force counterpart. I have not spoken to 
my Army counterpart as yet.
    Mr. Conaway. Okay. There may be some value in making sure 
that you guys all talk to each other.
    Yield back. Thank you, Mr. Chairman.
    Thanks, gentlemen, for your service and the happy news 
today.
    Mr. Forbes. In a follow-up to Mr. Conaway's questioning, 
have you guys done any war-gaming in conjunction with our new 
strategy, and if so, what does that suggest in terms of the 
additional large surface combatants that we will be needing?
    Admiral Fanta. A lot of the war-gaming, sir, we have been 
doing with the numbers we expect to have. What we do now is we 
now war-game with advanced weapons capabilities that actually 
increase the capability of those ships that we will have.
    As I said, it takes years to build a ship, so what I am 
really doing now is increasing the capability of those ships, 
no matter how many I have and how long I have them, and getting 
them to be more lethal and getting them to see more, to allow 
me to have that deterrence so the fight doesn't start.
    Mr. Forbes. At some point in time what we would just like 
for maybe you to do is come over and give us a briefing to 
follow up with what Mr. Conaway was saying, not of what we are 
trying to get to but of what the war-gaming would show we would 
have today if we had to be in one of those fights.
    Admiral Fanta. We can do that, yes, sir.
    Mr. Forbes. With that we recognize the distinguished lady 
from Guam, for 5 minutes.
    Ms. Bordallo. Thank you, Mr. Chairman. Admiral Fanta, and 
of course Admiral Mercado, it is good to see you again. Thank 
you both for your testimonies today.
    My first question is regarding large surface combatants' 
role in the rebalance strategy. As we continue to rebalance to 
the Asia-Pacific region, can we assume that this will lead to 
an increased emphasis on Pacific deployments for amphibious 
readiness groups and their L-class ships? Either one of you. 
Just a yes or a no.
    Admiral Fanta. So on the large surface combatants, the 
first capability I have of the advanced capability ships are 
being deployed to the Pacific, ma'am.
    Ms. Bordallo. Okay. Admiral.
    Admiral Mercado. I think by our presence and how we are 
increasing our presence and putting our most capable ships 
there, I think the answer is yes, ma'am.
    Ms. Bordallo. Thank you. Concurrently, recent events in 
Europe, North Africa, and the Middle East highlight ever-
increasing requirements and commitments, despite a decreasing 
number of large surface combatants.
    Now for instance, it is reported that combatant commanders 
receive less than half of their Amphibious Readiness Groups, 
Marine Expeditionary Unit requirements. How do we resolve this 
dilemma?
    Admiral Mercado. Having just come from CENTCOM [U.S. 
Central Command], that Marine amphibious units and the 
amphibious ships that support them are hugely valuable and in 
high demand, as you know. So I think to support the Marines 
have established a special purpose MAGTF [Marine Air-Ground 
Task Force] to increase their presence and enhance their 
response.
    We have to be able to support them, so I know from a force 
provider standpoint, again, we have to contain two biases: CNO 
wants us to be forward, and I know whatever we can't provide, 
you know, that has to be adjudicated.
    Ms. Bordallo. All right, thank you. Now I have one final 
question. With the proliferation of long-range precision strike 
missiles and sophisticated anti-access/area denial [A2/AD] 
systems throughout the Persian Gulf and in the Western Pacific, 
what is being done to ensure access into these contested 
regions? And what role do amphibious forces play in peeling 
back these A2/AD rings to ensure access to contested maritime 
and littoral domains?
    Admiral Mercado. I would say from a capability standpoint 
the capabilities that would peel that back would fall primarily 
on the large surface combatants and the aircraft carriers, 
along with our partners in the Air Force, and also the 
submarines, because, you know, that is where we--that is the 
capability and the capacity that we have to do that to help 
support and gain access for our amphibious ships.
    Ms. Bordallo. Any comments, Admiral Fanta?
    Admiral Fanta. Ma'am, from the perspective of if I have 
lethal capability on my ships and I shoot first and I shoot 
further, they have to stay further away. And I get more of a 
shot and I get more defensive and offensive capability.
    From the Marines' amphibious strike groups that are 
deploying now, we have to understand that they are about to 
start deploying the Joint Strike Fighter, which is the first 
fifth-generation fighter we will have at sea, whether that is 
Navy or Marine Corps, and that will give us a significant 
advantage in that high-end fight.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Forbes. I thank the gentlelady, and we recognize now 
the gentleman from California, Mr. Cook, for 5 minutes.
    Mr. Cook. Thank you, Mr. Chair. You answered one of my 
questions about the F-35B, but this--all the talk about 
missiles. I am a little bit unclear. I will show my ignorance 
right now by talking about the Aegis missile system, and 
particularly the role of the system that is going to be in 
Romania.
    You know, obviously we are going to not be discussing about 
moving it from point A to point B. Romania is a big anchor to 
pull up and move, but how do you think this experiment is going 
to play out in terms of fleet projection if you have got one 
stationary site there with covering all these different areas 
there. Is that going to relieve part of the deployment 
pressure?
    Admiral Fanta. So the two things that blend together. One, 
the Romania site is a defense of Europe site, and from that 
perspective it is put in a spot that allows us to take care of, 
without going classified, the most likely threat against that 
area.
    What it adds to is it allows us to move our destroyers, and 
we have forward deployed four destroyers out of Rota, Spain, to 
currently cover that mission. It allows us to, one, cover more 
areas, and two, cover more missions than just the ballistic 
missile mission. So those four forward-deployed ships are right 
now assigned to it and they will see less pressure to be 
continuously in one or two spots in the ocean to do what 
Romania will pick up.
    Romania plus the future site in Poland will relieve even 
further the pressure on those forward destroyers that we have 
there. That is not to say we will pull them back, because that 
capability is cumulative, but what we will do is now they don't 
have to stay in that one spot in the ocean for that length of 
time.
    Admiral Mercado. Yes, sir, you are right. We don't consider 
that a Navy-unique mission. When I talked about peeling back, 
before, we made an assumption that all 85 large surface 
combatants would be BMD-capable, but when we peeled back that 
onion, it was instructive to assess to sow what the force 
structure we need for Navy-unique missions, and that mission is 
not Navy-unique.
    Mr. Cook. No, and you are right. I know about NATO [North 
Atlantic Treaty Organization] and everything like that, and 
Poland. I hope that if that works out well in terms of being a 
success, and we do have pressures with all these different 
deployments and we don't come through with all these ships and 
everything else, I am wondering if at least in terms of gaming 
this or CPX-ing [command post exercise] it or whatever term you 
are going to use in the future at the war college or what have 
you, that that being part of the plan, because obviously it is 
part of the NATO plan.
    I have got my fingers crossed because I am not really sure 
how that is going to work out.
    Admiral Fanta. We have two aspects there, sir. It is part 
of the plan, it is part of the war games we exercise. I 
recognize that these ships are forward. They are away from the 
continental United States and they have their own stresses on 
them, but if I put two dozen ships over there, I would still 
have a waiting list of people wanting to go over there and do 
that mission.
    I have to turn people away in droves to go live in Spain 
and live forward deployed on a destroyer, no matter how tough 
that mission is and how long they are at sea. So it is a 
combination of sailors doing what they want to be, forward and 
operational, and defending our allies throughout the world.
    Mr. Cook. Thank you very much. I yield back.
    Mr. Forbes. The gentlelady from Florida, Ms. Graham, is 
recognized for 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman. I have quite a large 
Air Force and Navy presence in my district, the Second 
Congressional District in Florida, panhandle essentially, and I 
have heard from both the Air Force, and maybe not so much the 
Navy, about challenges they face with maintenance.
    I was curious. Are you all facing any difficulties with 
just the maintenance component of keeping your ships ready to 
go if necessary?
    Admiral Fanta. So we for years have been fighting to drive 
down what we call a backlog in maintenance. We have built up 
over years of multiple rapid deployments that continuously 
surged to wherever the hotspot in the world was, we built up a 
lot of maintenance backlog that we now have to drive down.
    Just like the Army or the Marines that were in the desert 
for years at a time, stress on their equipment now requires 
that to come back and be reset and recapitalized back in the 
CONUS [continental United States] to allow them to go through. 
I have to do the same sort of thing.
    The Army puts tanks into depots, the Marines put 
helicopters into depots to get that long-term deep maintenance 
done. I have to put ships into depots to get back to what I 
need, and that is 35 to 40 years of life out of each ship.
    Admiral Mercado. I can also say it is better. Before, it 
was a concern, we were challenged, we had issues. Having just 
come from the fleet, and a lot of my ships and carriers were in 
maintenance, and the maintenance is now getting done. We have 
just got to now be smart about how we do it, make sure again we 
start and stop on time, but now we see the surge where we are 
getting better with our maintenance.
    Ms. Graham. That is really good to hear. You mentioned the 
backlog, Admiral. How long is the backlog, even if it is 
getting better?
    Admiral Fanta. So we have brought it down from 
approximately 3 years' worth of backlog. We are down to less 
than a year now. We have put a consolidated amount of effort, 
time, and resources against this. Both fleet commanders have 
taken this on personally, both type commanders, the surface 
forces on both the east and the west coast have taken this on 
personally.
    We have put billions of dollars against getting this 
backlog down and getting to the point where we can have a 
knowledge of what is wrong, a plan to fix it. We have a 6-year 
plan that we can lay out to exactly how much maintenance and 
modernization has to be done every year to stay on that.
    Where we fall short, and frankly, as your colleagues behind 
you were saying earlier, if we have to all of a sudden surge to 
a crisis, that takes up time from this. We are not saying we 
won't go. We will absolutely go, but it takes up time from 
getting to this backlog.
    Ms. Graham. Is maintenance and modernization, are those 
combined? Are they considered the same or are they different?
    Admiral Fanta. Modernization is when I take new systems, as 
the chairman was alluding to, and put new systems on cruisers, 
put new systems on destroyers, put new weapons systems 
throughout the fleet. That is modernization.
    Maintenance is a pump breaks, I need to put a new seal in 
it. I put it back together, I put it back in the ship and the 
pump keeps working. So we blend those two together a lot of 
times because it goes in the same time. While I am putting a 
new radar on the ship, I am also fixing the pumps that have 
broken during that period of time, ma'am.
    Ms. Graham. That is good common sense. Thank you very much. 
I appreciate your answers very much.
    I yield back the balance of my time.
    Mr. Forbes. The gentleman from California, Mr. Hunter, is 
recognized for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman. I have just got a 
simple question. We have been told this whole year, just about 
by everybody who comes in and briefs the full committee, that 
all of the near-peer competitors are very close to matching us 
technologically. We are all fairly close right now, and it is 
going to be closer and closer as we go forward and other 
countries have the same software engineers that we have here 
for the most part.
    So my question is, when does quantity trump quality? Chuck 
Yeager told a story, when we were flying prop planes in World 
War II and the Germans had jets, I said, well, gee, that has 
got to be a hard dogfight. How do you shoot down jets? He said, 
well, they were all on the ground, we blew them up. Because 
they were just swarming them. We would just swarm them with 
prop planes.
    That is my first question is, when does quantity trump 
quality?
    Admiral Fanta. So quantity is not just in ships, but it is 
about weapons systems I can employ. When we talk about 
capability and capacity, it is not just how many ships I have 
at sea but how many weapons and how capable those weapons are, 
and from how many directions I can hit the adversary.
    What I want to do is hit him from multiple directions and 
not even let him leave port, same thing that Chuck Yeager did 
during World War II. Let me hit him now, let me hit him soon, 
and if I can't, that is risk to us. If I let him come all the 
way out, that is risk to us. If I let him continue to get all 
the way around me so I have got a 360-degree fight, that is 
risk to us.
    Now, I understand that may not always be possible, so we 
have to both defend and provide offense. We have to give the 
best capability we have to defend against those jets versus 
props, as well as now providing an offense to hit them on the 
ground with bombers before we start.
    Admiral Mercado. Yes, I have to, sir, characterize that in 
the air realm where I look at is, you know, the best example 
for me is that modernization, going from, say, fourth-
generation to fifth-generation fighters. As our air wings 
evolve from, say, the F-18E/F and the Joint Strike Fighter, and 
we start to populate our air wing with more higher end 
fighters, the faster we can do that, then the exchange ratios 
between a fifth-generation fighter and a fourth-generation 
fighter, you know, are what we like.
    If we don't do that and we stay onto the fourth-generation 
model then those exchange ratios aren't really what we want.
    Mr. Hunter. But the numbers you were giving the chairman 
over there are the numbers of ships. Those numbers were our 
place technologically versus other people right now, other 
near-peer competitors technologically. The numbers that you 
gave them represent that.
    So if everybody is even, your numbers change dramatically 
for us. We would obviously have to have way more because you 
wouldn't have that technological edge over a near-peer 
competitor, right?
    Admiral Fanta. So if I characterize it from a physics 
perspective, I think that is maybe the easiest at this point, 
the faster the missile coming at me and the lower the radar 
cross-section, if you are talking about advanced capability, 
the more power I have to put out of my radar and the more 
processing I take out of my software.
    That means that I will have to have more of those radars on 
more ships around a wider area to handle a 360-degree fight. 
Sometime in the future when I am fighting in the middle of a 
360-degree battle against high-end weapon systems, I may have 
to have more ships.
    Vic's job right now is to model those numbers and tell you 
what they are, and that is what he is doing.
    Admiral Mercado. When we look at the numbers, because when 
we talk about where the 88 number came from, that is after 
analysis based on a planning scenario against what we call our 
most stressing environment, which is that near-peer competitor.
    That is where we come up with the minimum number to be able 
to defeat that threat. The minimum number. So your point is 
well taken. That number does matter. The 11 carriers, 88 large 
surface combatants, those numbers do matter, but they are 
minimum.
    Mr. Hunter. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. The gentleman from Virginia, Mr. Wittman, is 
recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Fanta, Admiral Mercado, thank you so much for 
joining us. I want to ask a question related to how aircraft 
impact our large surface combatants. As you know, the F-35B is 
in the process of achieving IOC [initial operational 
capability] as its capability and as, you know, we are bringing 
on the F-35C, hoping that it gets ramped up, is able to be 
deployed with our carrier strike groups.
    How will the increased capability that comes with those 
aircraft, both in large-deck amphibs, but also there in the 
aircraft carrier fleet, how is that going to affect the 
employment of large surface combatants then as part of carrier 
strike groups within the overall projection of power within the 
Navy?
    Admiral Fanta. So broadly, the further back I can keep the 
adversary from shooting with a fifth-generation fighter pushing 
out deeper into his area, the less missiles come at me. 
Tactically that is more sensors in the air to look for incoming 
threats.
    Every time we put a fifth-generation aircraft with its 
sensors in the air, that is more things I have looking for 
incoming threats, which means the more data I have to my ships, 
even the large surface combatants, to understand where those 
threats are coming from and to be ready for it, and to counter 
that threat well before it gets to me.
    So it is both the fight in the long-range, it is the fight 
in the high end, and it is the number of sensors, advanced 
sensors I have in the air at any one time.
    Admiral Mercado. I would say, sir, any carrier strike group 
environment, you know, we always talk about defense in depth. 
So while we have the number of five surface combatants, three 
BMD-capable, AAW-capable [anti-aircraft warfare], now we have 
that layer whereby that Joint Strike Fighter can be that outer 
ring defense.
    It still matters, a fifth-generation fighter against a 
fifth-generation adversary. And it is complementary, so our 
ships can help control that Joint Strike Fighter. And then we 
also have the E-2s and things like that so we can fight 
alongside as well as our Air Force and Marine brothers.
    Mr. Wittman. Got you. Let me ask about the 35-B as part of 
our amphibious--our large-deck amphibs. What does that do to 
the Navy's ability to project power? Obviously we have our 
large-deck amphibs that are part of our MAGTFs, but give me 
perspective on how the Navy looks over all of that F-35B 
capability on the decks of our large-deck amphibs?
    Admiral Fanta. So it is a significant increase over the 
current Harrier fleet, even with the latest upgrade of the 
Harriers that carry air-to-air weapons. It is integrated, where 
a Harrier is essentially a put it up there, tell it where to 
go, tell it what to shoot, and bring it back. It is integrated 
into that battle force.
    It is integrated with the carriers, the large-deck amphibs, 
any cruiser, any destroyer, any small surface combatant that is 
out there. That integration now is what brings us to that next-
generation fight. It is not just point, shoot, forget, bring 
back.
    Admiral Mercado. I think it also gives us huge flexibility, 
sir, because our carriers cannot be everywhere. Then our large-
deck amphibs, they have a battle rhythm and they support 
specific missions for the COCOMs.
    So now if you have the flexibility for a large-deck amphib, 
with the striking power that a Joint Strike Fighter brings, it 
gives us much more capability where you may not need a carrier.
    Mr. Wittman. Got you. I want to go back to an answer of the 
question that you gave Mr. Hunter when you talked about the 
number of large surface combatants that are now functioning in 
the newer environment of A2/AD.
    As you said, the structure now for carrier strike group is 
five large surface combatants with that strike group, but you 
talked about needing potentially more within that A2/AD 
environment. Give me your perspective on how many more, and 
under what type of situations. Would that be in all situations 
or only in certain situations? Give us a little more refinement 
because I am interested in the comment that you had about 
needing more than five in that as part of the carrier strike 
group.
    Admiral Fanta. That five is a baseline number that we use. 
The higher the fight, the more intense the fight, obviously 
every commander out there, Admiral Mercado just came back, 
would like more, and more coverage and more weapons to employ. 
It is not just about large surface combatants.
    And I recognize this hearing is about large surface 
combatants, but small surface combatants with a heavy 
antisubmarine capability, integrated into that strike group, 
now take away some of the pressure of that large surface 
combatant to have to do that antisubmarine mission while it is 
also looking for ballistic missile or air threats.
    So it is not just I need X number of ships that have to be 
full-up, large surface combatants. I will need the emphasis of 
those large surface combatants targeted against the highest 
threat that is coming at me, and then I will need to relieve 
some of the pressure on things like antisubmarine warfare with 
P-8s off the land bases, with littoral combat ships, with 
helicopters, with submarines in a direct support role, out 
there providing that screen.
    We don't just fight with a carrier strike group and a bunch 
of destroyers and cruisers. We fight as a Navy, and that will 
allow me to essentially do my mission with the number of ships 
I have, whether that is 5, 6, 7, 10.
    As Admiral Mercado and I were talking before we walked in 
here, if we had the choice, we would walk across the Pacific on 
the deck of a destroyer, occasionally stubbing our toes 
stepping down onto a submarine and up onto an aircraft carrier. 
We would love more but we also recognize I can only build so 
many, and I need all these ships and all these aircraft and all 
these submarines and aircraft carriers working together to get 
me where I need to go.
    Admiral Mercado. Sir, I would add that that is one of the 
benefits of the Optimized Fleet Response Plan. While we ramp up 
our training and we have a carrier strike group with five 
surface combatants, and we run it through its training, what we 
have done in this construct is with the independent deployers 
that we have that are primarily trained to fill a BMD demand, 
what we endeavor to do now is to bring them in with this strike 
group training.
    So now you have a strike group who was deploying and you 
have independent deployers, maybe two or three DDGs 
[destroyers], who are going to be out there at the same time. 
It makes perfect sense to bring them into the training because 
you never know when you are out there where you need to re-
aggregate.
    These ships are not just single-mission ships. They are not 
single-mission BMD ships, so that allows us actually the 
flexibility to grow if required based on the mission.
    Mr. Forbes. The gentleman's time has expired. The gentleman 
from Rhode Island is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service and for your 
testimony today. Admiral Fanta, I think the last time I saw you 
I believe we were discussing small surface combatants. So it is 
good to see you here to talk to the other side of the coin, if 
you will.
    So I have noted with interest Vice Admiral Rowden's article 
in ``Proceedings'' earlier this year that talked about 
distributed lethality and hunter-killer surface action groups. 
It is an intriguing concept, I believe, and attractive in many 
ways, but given the mix of capabilities on ship classes 
involved, in particular with the dearth of defensive anti-air 
on the Independence and Freedom classes, I am curious as to how 
it could affect the demand signal for certain capabilities.
    How do you foresee this concept, if applied, affecting the 
demand for large surface combatants? Would it cause the Navy to 
reprioritize certain programs such as LCS [littoral combat 
ship] modernization efforts?
    Admiral Fanta. So there is a perception that LCS does not 
have an anti-air capability. Right now the SeaRAM [anti-ship 
missile defense system] and RAM [rolling airframe missile] 
capability I am installing on LCS is one of the most capable 
weapons in the world against a high-end threat. That is today. 
That is being installed on LCS today.
    There is a misconception that I have to guard LCS against 
air threats. Right now I am installing that same SeaRAM 
capability not only on LCS but my high-end destroyers that 
deploy to various parts of the world that may face those same 
threats, so I am leveling the force.
    As you mentioned, Admiral Rowden's article that we co-
authored with both the Surface Forces Atlantic, us, and Admiral 
Rowden, the idea is, if it floats, it fights. I give every ship 
the capability of an offensive punch and a defensive punch.
    Now that may not be just the capability of an oiler to 
shoot a ballistic missile down. That is not what we are talking 
about. But every ship out there should be able to contribute to 
the fight, to the capability that it has.
    As you know, we are looking at the expansion of the LCS 
program to include what has now been called the frigate, and 
that will have over-the-horizon missiles. Over-the-horizon 
missiles knocks the enemy back. It makes him think about every 
LCS out there as a potential threat.
    When we put these defensive systems on LCS, it not only 
makes it survivable but it makes it lethal to the adversary. We 
have to be able to make him think about not just large surface 
combatants, not just aircraft carriers and submarines but about 
every surface ship that is afloat out there, everywhere that it 
can deploy from.
    Admiral Mercado. Sir, I would say distributed lethality has 
huge potential. As we transition our mindset from purely 
defensive and we give more offensive capability to our surface 
combatants, that is just another resource for the COCOMs to use 
in adjusting their plans, you know, against any potential 
competitor. And once, as this progresses, then that comes back 
to my shop to do the assessments.
    Mr. Langevin. Thank you. Thank you for that answer. Let me 
turn to something else I spend a lot of time on, and that is 
directed energy. Can you provide us with an update on your 
efforts to prepare the surface fleet for the integration of 
directed energy weapons? What role do you envision those 
capabilities taking on, both on LCS and other ship classes, 
that would be covered under the concept of distributed 
lethality?
    Admiral Fanta. So just today Admiral Mercado and I were 
discussing one of the latest successes in that energy type 
weapon system. Our forward fleet operating base of Ponce, the 
USS Ponce out in the Middle East, shot down multiple drones 
with a directed energy weapon. Results of that just came back. 
We are at that level that we can shoot down both--not only 
dazzle the adversary but we can shoot down his surveillance 
assets, and we have proven that.
    We are expanding that to not only look at drones but high-
end weapon systems, and the advances that we have. We are not 
there yet, but we are close and we are continuing to advance in 
that.
    Admiral Mercado. In our assessment, sir, munitions matter. 
Numbers of munitions matter in any type of exchange. So when 
you can use directed energy or low-cost munitions then that 
increases your advantage.
    Mr. Langevin. Well, I want to again commend the Navy on 
being forward-leaning on directed energy, more so than any of 
the services right now. I think this is a capability that is 
maturing faster than what most people realize, and it is good 
to see that the Navy has already got something fielded and you 
are both--it is a test platform but also an active system.
    I know my time has expired. I have got a bunch of other 
questions but I will submit those for the record. Mr. Chairman, 
I yield back.
    Mr. Forbes. We thank the gentleman for his hard work in 
this area at so many different times.
    Mr. Conaway has one follow-up question, then Mr. Courtney.
    Mr. Conaway. I am a CPA [certified public accountant], so 
trying to get back to an answer on my ham-handed question. So 
let's hold 100 ships constant, 9.2 months. That equates to 
about 27,600 days at sea. You divide that by 210 days, you get 
131 ships. So is the differential for this conversation 31 
ships additional to get you to 7 months?
    Admiral Fanta. The math works, as you said. I won't, 
because this----
    Mr. Conaway. Well, I know there are a lot of variables but 
on the back of a napkin----
    Admiral Fanta. At 88 to 90 ships you are at 9 months, 9 
months plus. The math works out to around 100 to 105 ships, you 
are at 8 months. At around 110 or 112 ships, you are at 7 
months. The math, you are absolutely right. It is a 0.19 ship 
availability and that is how you get to that number, sir.
    Mr. Conaway. I got you. So somewhere in the 25- to 30-ship 
range, you would be whole at the 7-month deployment.
    Admiral Fanta. Holding all else constant, yes, sir.
    Mr. Conaway. I got you.
    I yield back.
    Mr. Forbes. It is always good to have a CPA on the 
committee.
    [Laughter]
    Mr. Forbes. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. We have the force 
inventory chart which shows the next 30 years for all different 
categories, which I guess that is kind of what your portfolio, 
as you are looking over all the time. But as far as the 
requirement for advanced ballistic missile defense ships, the 
40 that we have been talking about and the 33 that we are at 
today, I mean, we don't have that chart.
    Maybe you said this already, but can you just sort of give 
us some projections starting in 2015? When do we hit the 40 
requirement, and will we stay there or will we keep going up 
or, you know, is there going to be----
    Admiral Fanta. I am building them now and I am modernizing 
to that capability now, so I have the first ships out there 
already of that advanced capability, of the 40. We start that 
as a subset. Roughly at the build rate of 2 new ships a year 
and modernization of approximately 2 destroyers or destroyer/
cruisers a year, I will have hit my 40 ships at 2026.
    If you increase those numbers by any amount, the soonest I 
could have them is in 2024\1/2\. So if I give you three a year, 
four a year, five a year basically, you know, I can only build 
two new ships a year right now. That is kind of constant based 
on my Ohio-replacement numbers, but it is the modernization 
that moves me up and down on that, whether I move left or right 
on the 2026 number. That is for the high-end capable ships.
    The ships that don't get modernized to that high end will 
still have ballistic missile capability, and now will make up 
not only--beyond that 40 will make up the additional ships up 
to, as has been mentioned, 77 or give or take that number 
around the world.
    Just because I have not upgraded that ship to the highest 
end capability, it does not mean it is put it off to the side. 
It is good for that defense of Europe, defense of somewhere 
else. That defended asset list that I have now got at sea, the 
advantage of mine is, I am portable. If you change that, if 
somebody points a ballistic missile at a different part of the 
world, and I have got ocean space in there, I can put that ship 
in there.
    I hit my 40 number in about 2026 based on the current build 
and modernization rate.
    Mr. Forbes. And Admiral, just to follow up on that, these 
are very important. You have emphasized how important they are. 
Why did the Navy take out five of their destroyer 
modernizations for BMD in the FYDP this year if they were so 
crucial?
    Admiral Fanta. Fiscal challenges.
    Mr. Forbes. So it was purely money.
    Admiral Fanta. Purely money.
    Mr. Forbes. Mr. Langevin I recognize for one additional 
question.
    Mr. Langevin. Thank you, Mr. Chairman.
    Admiral, so I have heard a variety of explanations as to 
why the DDGs are less capable in the air warfare commander 
[AWC] role in a carrier strike group: lack of staffing, lack of 
facilities, the more senior and experienced leadership 
generally found on CGs [cruisers], deeper magazines, et cetera.
    Is it a physical or staffing limitation that drives the 
desire for CGs in the AWC role? Which concerns are able to be 
mitigated and which are not?
    Admiral Fanta. Primarily the physical capabilities of the 
ship, having two radar deck houses vice one on a destroyer is 
something--I can't add another deck house to a destroyer. I 
cannot have that redundancy nor can I add another 30 missiles 
to a destroyer. That is a physical limitation.
    I could make the crew more senior, I could give them more 
experience, I could put more of them on to the limits of the 
amount of bunks I have on that ship. I am bunk-limited for the 
number of people I have on that.
    So from the flexibility of the experience, the training and 
the, to some extent a few more people, I could increase that 
to--towards the level of that cruiser, but I cannot physically 
change the dimensions of the destroyer primarily in the amount 
of redundancy and the amount of weapons it has on board, sir.
    Mr. Langevin. Thank you.
    Mr. Forbes. Gentlemen, as we mentioned to you earlier, we 
can't thank you enough for the service you have both given to 
our country, but we thank you. One of the things we would like 
to do now is offer you any additional time you need for things 
that you think are important that we get on the record that 
maybe no one has asked, or any clarifications you need to make.
    Admiral Fanta, why don't we start with you.
    Admiral Fanta. Yes, sir. I recognize that there is always a 
tension between what we have to fight today and what we have to 
fight tomorrow. There is always risk we will miss something and 
not catch the latest development by a potential adversary. That 
is our job to blend those risks back and forth.
    There is the risk that I won't fund that key element 
somewhere that would make the entire--change the entire face of 
something 10 years down the road. We offer our best estimate on 
the most risk-mitigated way forward, given what we see as 
resources today and tomorrow.
    What we are recommending is that we blend the large surface 
combatants to a number of minimum of 88, and exceed that where 
we can over the next 15 years or so while we are building the 
Ohio replacement, to allow our Nation to recapitalize that one 
key element that we cannot forsake, and that is our ability to 
be safe using a nuclear deterrent.
    We recognize, as much as I am a parochial surface warfare 
officer, I recognize also that there is a higher need for some 
elements of the national defense. I would ask that we can blend 
those large surface combatants at 88 or above over that period 
of time where we are recapitalizing this force.
    If, sir, you can help us take that off the table and make 
it all about large surface combatants, we are all in, and from 
that perspective we are ready to have that conversation on how 
many and how fast. Thank you, sir.
    Mr. Forbes. Thank you.
    Admiral.
    Admiral Mercado. Sir, we talked about this a little bit 
here but my primary concern is warfighting and capability and 
capacity against that near-peer competitor, like we said. So my 
biggest concern is downstream is essentially Ohio replacement 
and the potential impact it could have on our capability and 
capacity if we are tasked to fund that entirely.
    So right now we can do, just like Admiral Fanta said in the 
opening, we can deal with a near-peer competitor with the 
numbers we have. My concern is the effect on that capability 
and capacity depending on how we address the build of Ohio 
replacement.
    Mr. Forbes. Well, let me just tell you guys to hopefully 
allay some of your fears. This is probably one of the most 
bipartisan subcommittees and maybe committees in Congress, and 
we are the best team we know how to field to do exactly what 
you want to do. We are going to continue to fight.
    We have 321 Members of Congress that agreed with you the 
other day, and I think that will continue forward, but we are 
going to fight to make sure that we accomplish those goals that 
you just laid out for us.
    With that, if we don't have any additional questions, thank 
you both for being here, and we are adjourned.
    [Whereupon, at 3:17 p.m., the subcommittee was adjourned.]


      
=======================================================================



 
                            A P P E N D I X

                             June 17, 2015

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 17, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                <all>
</pre></body></html>
